po-1133
No. 21-

FEB 1 5 2021

3(n tlje

Supreme Court of tfje Mntteb States;
Nicholas L. Triantos,
Petitioner
v

Deutsche Bank National Trust Company, as
Trustee for Morgan Stanley ABS Capital I Inc.,
Trust 2004-E4, Mortgage Pass-Through
Certificates, Series 2004-HE4, New Century
Mortgage Corporation, Bank of America, N. A.,
Select Portfolio Servicing, Inc., Countrywide
Home Loans. Inc., Guaetta &Benson, LLC.,
Audrey G. Benson, Peter V. Guaetta, and Sarah
T. Fitzpatrick
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
PETITION FOR WRIT OF CERTIORARI
Nicholas L. Triantos, Esq.
Lynnfield Woods
200 Broadway Suite 302
Lynnfield, MA 01940
617-828-4848
nltlaw@nltlegal.com
Pro-Se Petitioner,

Supreme Court, U.S.
FILED

February 15, 2021

OFFICE OFTHF CLERK

i

QUESTIONS PRESENTED
1. Whether the First Circuit erred in concluding
that one Count under the Fair Debt Collection
Practices Act was sufficient to confer Federal
Jurisdiction over the Petitioner despite the lack of
Federal Pre-emption over M.G.L.C. 93A, and in doing
so erred in failing to Remand to State Court all in
direct conflict with this Honorable Court’s Decisions.
2. Whether the First Circuit erred in failing to
Remand to State Court for lack of Subject Matter
Jurisdiction by refusing to apply the Mandatory Prior
Exclusive Jurisdiction Doctrine, requiring Remand,
espoused by this Honorable Court in direct conflict
with this Courts mandate.
3. Whether the Petitioners Constitutional Right
to Due Process and Equal Protection were violated
where the District Court in allowing the Respondent’s
(Deutsche Bank) Counsel to verbally prove its case in
open court (later determined as false) and ignoring the
Petitioner’s documentary proof that Respondent,
Deutsche Bank, lacked Standing to Foreclose on
Petitioner’s Home and therefore lacked standing in
any action in any Court, and where the District Court
rested its dismissal of Petitioner’s case based upon the
verbal misrepresentation of the state of the Law in the
Commonwealth of Massachusetts by Counsel to
Deutsch Bank, that is the exact opposite of the Law of
the Commonwealth of Massachusetts.
4. Whether the 1st Circuit violated the Separation
of Powers
Federalism by interpreting a
Massachusetts Statutes in opposite of the Supreme
Judicial Court’s interpretation of the Statutes,
thereby creating a distortion on the application of the
Statutes in violation of the Separation of PowersFederalism, that has violated the rights of not only the
Petitioner but also many citizens of the
Commonwealth of Massachusetts similarly situated.

PARTIES TO THE PROCEEDING
Pursuant to Supreme Court Rule 14 (b) (i), a list of all parties is contained in
the caption of the case
Table of Authorities
Cases
Altria Grp., Inc. v. Good, 555 U.S. 70, 76-77 (2008)

12

Baybank Middlesex v. 1200 Beacon Properties, Inc.
760 F. Supp. 957, 966..................................................

25

Board of Directors of The Drummer Boy Homes
Association, Inc. v. Britton et. al., I:07cvll826,
1st Circuit, US District Court, (2007).................
Chapman v. Deutsche Bank Nat'l Trust Co.
302 P.3d 1103, S. Ct, Nev, 9th Cir. (2013)...
Dean v. Compass Receivables Management Corp.,
148 F. Supp. 2d 116, 118 (D. Mass. 2001)...............
Deutsche Nat’l Trust Co. v Fitchburg Capital, LLC,
28 N.E. 3d 416, 471 Mass. 248 (2015).......................

8

13
7,8

2,18,21,24

Gandolfo v. Graham, 18 LCR 517,
518 (Mass. Land Ct. October 8, 2010)

31

In re Energy Future Holdings Corp.,
540 B.R. 96, 99-100, (2015)................

25, 26

In re Foreclosure of Deed of Trust,
303 N.C. 514 (N.C. 1981)...............

28

Kline v. Burke Constr. Co., 260 U.S. 226, 229 (1922)

13

McDermott v. Marcus, Errico, Emmer & Brooks, P.C.,
911 F. Supp. 2d 1, 48 (D. Mass. 2012)...........................

9

Podbielancik v. LPP Mortgage, Ltd.,
No. C13-1934-MJP, 2014 WL 1807049 b
(W.D. Wash. May7, 2014).......................

14

Premier Capital, LLC v. KMZ, Inc.,
464 Mass. 467, 473 (Mass. 2013)....

34

R.I. Fishermen's Alliance, Inc. v. R.I. Dep't of Envtl. Mgmt.,
585 F.3d 42, 50 (1st Cir. 2009).................................................

9

Ruhrgas Ag v. Marathon Oil Co., 526 U.S. 574, 577 (1999)

6

State Eng’r v. S. Fork Band of Te-Moak Tribe of
W Shoshone Indians, 339 F. 3rd, 804, 810 (9th Cir. 2003)

12

U.S. Bank National Assoc, v. Ibanez, 458 Mass.
637, 653-54 (Mass. 2011)......................................
4518 S. 256th, LLC v. Karen L. Gibbon, PS,
195 Wn. App. 423, 435 (2016).......................

15,16
27

STATUTES
FDCPA, 15 U.S. C. § 1692 et. seq,
M.G.L.c. 93A et. seq

5,7,9
5,9,10

M.G.L.c. 106 Sec. 3-304,

2,18,23

M.G.L.c 106 Sec. 3-118

2,18,23,29

M.G.L.c.260 Sec.l
OTHER AUTHORITIES
Univ. Of Pennsylvania Law Review, Acceleration
Clauses in Notes and Mortgages, 1939.................

32

CORPORATE DISCLOSURE STATEMENT
Deutsche Bank National Trust Company, (“DB”)
is a corporate subsidiary located 1761 E Saint Andrew
Place, Santa Ana, CA, 92705-4934, whose parent
company is Deutsche Bank Trust Corp. with an
address of 60 Wall Street New York, NY 10005 United
States.
Select Portfolio Servicing, Inc., (“SPS”),is
Corporation organized under the Laws of the State of
Utah and a wholly owned subsidiary of Credit Suisse
First Boston,(publicly traded), headquartered in
Zurich Switzerland and New York.
Bank of America, N.A., (“BOA”) is a publicly
traded corporation headquartered in Charlotte, North
Carolina.
Countywide Home Loans, Inc. (“Countyrwide”) is
presently a defunct entity and was acquired by Bank
of America on July 1, 2008.
New Century Mortgage Corporation, (“New
Century”) is a defunct corporation formerly located at
350 Commerce Street, Suite 100, Irvine, California
92602 filed for Ch 11 Bankruptcy protection (along
with 16 other related corporations) on April 2, 2007,
the Estate was closed on August 26, 2016.
Gueatta & Benson, LLC is a privately held limited
liability company located in North Chelmsford, MA,
and its employees, Audrey G. Benson, Peter V.
Guaetta, and Sarah T. Fitzpatrick are individual
attorneys licensed to practice law in the
Commonwealth of Massachusetts.

OPINIONS & PROCEEDINGS BELOW
United States Court of Appeals for the First Circuit, Docket # 17-1938 decision
affirming the dismissal of Petitioners Complaint by the US District Court,
reproduced at (A86).
United States District Court, District of Massachusetts,
Docket# 17-CV-10550-WGY, Dismissal of Petitioners Complaint reproduced at
(APP )
Northeast Housing Court, Docket # 16H77SOP005308, currently pending.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. §1254(1).
STATUTES INVOLVED
Fifth Amendment to the Constitution
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use,
without just compensation.
Fourteenth Amendment to the Constitution
All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

Fair Debt Collection Practices Act, 15 U.S.C 1692 et. seq.
M.G.L.c. 93 Section 49:
Debt Collection in an Unfair, Deceptive or Unreasonable Manner
M.G.L.c. 93A Chapter 93A:
REGULATION OF BUSINESS PRACTICES FOR CONSUMERS
PROTECTION

TABLE OF CONTENTS
1
QUESTION PRESENTED................................
11
PARTIES TO THE PROCEEDING...................
CORPORATE DISCLOSURE STATEMENT...
.v
LIST OF PROCEEDINGS................................
IV
.Vlll
TABLE OF CONTENTS...................................
TABLE OF AUTHORITIES ...........................
111
VI
JURISDICTION.................................................
VI
OPINIONS BELOW...........................................
VI
STATUTES INVOLVED....................................
1
INTRODUCTION...............................................
PROCEDURAL HISTORY................................
3
PETITION FOR WRIT OF CERTIORARI.......
5
REASONS FOR GRANTING THE PETITION...... 35
36
CONCLUSION
la
APPENDIX......

1

INTRODUCTION
Petitioner submits this Writ as a result of
several Constitutional violations by the 1st Circuit that
are directly in conflict with this Honorable Court’s
decisions. Not only has Petitioner’s Constitutional rights
been violated, but many citizens of the Commonwealth
of Massachusetts as well.
The origin of the Petitioner’s assertions stems from the
stolen identity of the Petitioner by mortgage servicer,
Countywide Home Loans, Inc. (“Countywide”), on or
about September 2008, (See Stolen Identity Letter Al).
Petitioner immediately ceased any further mortgage
payments and informed Countywide that as a result of
the stolen identity Petitioner was vested with a right of
set off and demanded that Countrywide rectify and
compensate the Petitioner. Bank of America, N. A.,
(BOA), acquired Countrywide on July 1, 2008 (2 months
prior) and due to its gross negligence failed to screen
Countrywide’s employees now in BOA’s employ,
otherwise BOA would have learned that the individual
that had stolen the identity of the Petitioner was
convicted of the exact same crime and was incarcerated
for 36 months for his conviction.
Petitioner, thereafter, spiraled into financial ruin.
Within a week of receiving the Stolen Identity Letter,
Petitioner received various stating that purchases or
charges were made against Petitioner’s financial
accounts and further other emails seeking to extort
money from the Petitioner as the email falsely stated
that Petitioner was a convicted Sexual Offender and had
been placed upon a “sexual offender's database”, and in
order to remove the file and picture of Petitioner from
the database, a fee of $99.95 was to be remitted, (See
Police Report, Peabody Police Department, A2).

2

Litigation ensued requiring the Petitioner now to
litigate in both Federal and State Court in violation of
the Mandatory Prior Exclusive Jurisdiction Doctrine
espoused by this Honorable Court in Marshal (infra).
During the litigation no discovery was afforded to the
Petitioner but instead evidence was obtained from other
sources that demonstrated that DB was not the Real
Party In Interest and had no right to any claims against
the Petitioner all as a result of the facts described below:
1. New Century (alleged holder) had sold the purported
mortgage documents 45 days after the purported
closing date in 2004, (A3).
2. The Assignment'that DB relied upon for authority to
foreclose was dated more than 3 years later allegedly
assigning the same mortgage documents that New
Century had sold previously, (A12).
3. Notwithstanding, the Petitioner demonstrated the
signatures both of the Affiant and the Notary were
forgeries rendering the assignment void ab initio.
4. None of the purported mortgage documents were, nor
are they assets of the Trust DB alleges to be acting
as Trustee therefore.
5. The purported mortgage documents had all expired
by operation of law pursuant to M.G.L.c. 260 Sec 33
et seq., M.G.L.c. 106 Sec. 3-118, M.G.Lc. 106 Sec. 3304 and cases interpreting the aforementioned
statutes, Deutsche Nat’l Trust Co. v Fitchburg
Capital. LLC. 28 N.E, 3d 416. 471 Mass. 248 ( 20151
and Premier Capital. LLC v. KMZ. Inc.. 464 Mass.
467 fMass. 20131..
6. Petitioner’s right of set off or recoupment exceeds any
amount alleged to be owing to anyone.

3

PRECEDURAL HISTORY
After the illegal foreclosure of the Petitioner’s home, DB,
on April 15, 2016, filed its first civil action, (Deutsche
Bank National Trust Company v. Triantos, Docket No.
16-CV-10722-IT).
The Honorable Justice Talwani promptly issued a notice
to show cause Order to Show Cause to DB to prove that
the amount-in-controversy exceeded $75,000.00 (it did
not), and to disclose the location of DB’s Trustee(s) in
order to the confirm “complete diversity” and for DB to
disclose the Trust purportedly containing Petitioner’s
purported mortgage (DB’s complaint failed to disclose).
DB did not answer the Order to Show Cause, and
instead, (presumably to avoid discovery of DB’s
chicanery), filed a notice of voluntary dismissal.
Next, on or around December 9, 2016, DB filed a
Summary Process with the Housing Court in an attempt
to illegally evict Petitioner from his home, (Docket No.
1686-SU-77, and later transferred to Northeast Housing
Court Docket 16SP5308, currently pending), to which
Petitioner answered, counter-claimed and third party
claimed against the Respondents. Later amended to
include the newly discovered evidence leaving DB and
all of the Respondents with nothing but conduct that has
violated the rights of the Petitioner in the most
abhorrent and egregious manner,
Later Counsel for DB, (“CDB”) and then Counsel for
Petitioner (now discharged) agreed in writing, that the
matter should be litigated in Essex Superior Court, as
CDB stated he would be happy to litigate in Superior
Court. Unfortunately, Petitioner’s inexperienced
Counsel was unaware that CBD’s scheme was planned
from the start in order to get the instant case removed

4
to Federal Court, as CBD is well aware of the distortion
of the law of the Commonwealth that the 1st Circuit has
occasioned not only on this Petitioner but also on many
other litigants similarly situated (See Separation of
Powers infra).
After Removal, a flurry of motions ensued with the
Petitioner filing a Motion to Remand after filing an First
Amended Complaint (A14) and Respondents, thereafter
filing Motions to Dismiss, and Strike. Oppositions were
filed by Petitioner along with his Motion to Remand and
a hearing on the Motions took place on September 14,
2017. The District Court:
Never heard any oral argument and never
1.
considered Petitioner’s Motion to Remand, despite
jurisdiction being a threshold question, and
Incorrectly applied the legal standard applicable
to a “Plaintiff’, to DB and relied upon the open court
verbal mis-representations of CDB, who created a
fictional story that, “even if the signatures were
fraudulent on the Assignment, DB would be entitled to
have another Assignment this time with purportedly,
“non-fictitious, non-forged signatures”, both of the
purported authorized signer and the notary. (Also
Forged).
2.

DB’s Motion to Dismiss was granted to which Petitioner
sought an Appeal to the 1st Circuit Court of Appeals. The
Court of Appeals affirmed the dismissal and entered
Judgement against the Petitioner in violation of
Petitioner’s Constitutional Rights inter alia and
precipitating this Writ of Certiorari to this Honorable
Court.

5
PETITION FOR WRIT OF CERTIORARI
Petitioner Constitutional rights have been
violated by the 1st Circuits decisions that are in direct
conflict with this Honorable Courts decisions. The
internal conflict and variability amongst the Justices
within the 1st Circuit results in the Unconstitutional
application of Federal Jurisdiction so abhorrent that
Federal Jurisdiction in the 1st Circuit depends upon
which Justice a litigant comes before. Such.a result
cannot stand.
A. PRE-EMPTION
A determination of Federal Jurisdiction is not
determined by a simple statement that, “one Federal
Count” in a Plaintiffs complaint is sufficient to confer
jurisdiction, rather in the instant case, Federal
Jurisdiction turns on whether the Fair Debt Collection
Practices Act pre-empts M.G.L.c. 93A, Regulation of
Business Practices for Consumers Protection, which
this Court has already held that it does not and
therefor no Federal Jurisdiction over the Petitioner
existed, (Federal Question incorrectly formed the
basis for the 1st Circuit’s assertion of Jurisdiction,
diversity was not applicable to the instant case).
The First Circuit for the District of Massachusetts
is divided,... internally,., amongst the Justices on the
application of Federal Pre-emption and Federal
Jurisdiction or lack thereof.
The 1st Circuit summarily concluded (both the
District Court and Circuit Court of Appeals) that one
federal count in Petitioner’s Complaint “anchors”
jurisdiction, both of which are in error, (A88 and A86
)•

6

Federal Question Jurisdictional analysis does not
end by the simple statement that there is, “one count
stating a federal claim”, even in the face of an
express Pre-emption provision in a Federal
Statute. Federal Jurisdiction is based upon Federal
Pre-emption,., which here there is none, and as such
an analysis must be undertaken as a threshold
question.
Ruhrgas plainly states this holding:
"The requirement that jurisdiction be established
is a threshold matter ... is 'inflexible and without
exception,” 523 U.S. at 94-95 (quoting Mansfield, C. &
L. M. R. Co. v. Swan, 111 U.S. 379, 382, 28 L. Ed. 462,
4 S. Ct. 510 (1884)); for "jurisdiction is power to declare
the law," and "'without jurisdiction the court cannot
proceed at all in any cause,"' 523 U.S. at 94 (quoting
Ex parte McCardle, 74 U.S. 506, 7 Wall. 506, 514, 19
L. Ed. 264 (1869)). The Court, in Steel Co.,
acknowledged that "the absolute purity" of the
jurisdiction-first rule had been diluted in a few
extraordinary cases, 523 U.S. at 101, and JUSTICE
O’CONNOR, joined by JUSTICE KENNEDY, joined
the majority on the understanding that the Court's
opinion did not catalog "an exhaustive list of
9] to the solid
circumstances" in which exceptions [
rule were appropriate, 523 U.S. at 110.”
Ruhrgas Ag v. Marathon Oil Co.. 526 U.S. 574. 577
(1999)

7

The FDCPA, does not pre-empt M.G.L.c. 93A, as
this Court has held. Furthermore, the 1st Circuit made
this mistaken assumption, thereby ignoring
Petitioner’s Motion to Remand and (never hearing oral
argument) and further ignoring this Honorable
Court’s Doctrine of the Mandatory Prior Exclusive
Jurisdiction.
A chronology of this Jurisdictional variability is
provided below:
First, previously Plaintiff Deutsche Bank
National Trust (“DB”) filed a complaint with the
District Court for the First Circuit, (Docket # 16-CV10722-IT) wherein Justice Talwani ordered a Notice to
Show Cause in a proper examination of the Court’s
Jurisdiction.
The Court correctly examined its Jurisdiction as a
threshold matter and ordered a Notice to Show Cause
to DB, which resulted in DB withdrawing its
complaint.
Every Court must examine its own jurisdiction
sue sponte irrespective of whether a litigant asserts
the issue,... Justice Talwani adheres to this mandate.
Second, In Dean v Compass Receivables (1st
Circuit Dist. Mass.) concluded that:
“Applying the artful pleading doctrine to the
instant case, this Court has jurisdiction if the FDCPA
preempts Chapter 93A to the extent that it prohibits
unfair debt collection practices, see BIW Deceived, 132
F.3d at 831- 32 (artful pleading exception to the wellpleaded complaint rule is compelled by the doctrine of
federal preemption), or if resolution of the Chapter
93A claims necessarily turns on a substantial issue
arising under the FDCPA.See Franchise Tax Bd., 463
U.S. at 9; see also Kleinerman v. Luxtron Corp., 107
F. Supp.2d 122,123-24 (D.Mass. 2000) (finding federal

8

question jurisdiction where patent infringement
analysis was necessary to determine whether licensee
breached patent license). Because neither condition is
present, federal question jurisdiction is lacking.
Dean v. Compass Receivables Management Corp.. 148
F. Sunn. 2d 116. 118 (D. Mass. 20011
Third, and prior to the Dean Decision, the
Honorable, Judge Nancy Gertner, (1st Circuit, Ret.) in
a mere docket entry order, Her Honor stated:
“Even if the Plaintiff had brought a claim under
the FDCPA, that statute only preempts state law in
limited circumstances(*) not applicable here. As such,
the "well-pleaded complaint rule" governs the
existence of a federal question for purposes of 28
U.S.C. Sec. 1331 and, under that rule, there is no
federal question at issue.”
Board of Directors of The Drummer Bov Homes
Association. Inc, v. Britton et. al.. I:07cvll826. 1st
Circuit. US District Court. (2007).
(*the limited circumstance her Honor was
referring to relate to reporting under FDCPA, all of
which are inapplicable here as there has been no
reporting nor was any required)
Fourth, nor can Federal Question jurisdiction be
conjured up by the mention of a federal subject.

9
The First circuit correctly held that:
“Federal jurisdiction cannot be conjured up by a
passing mention of some federal subject. Under the
well-pleaded complaint rule, allegations in the
complaint that are unnecessary to the statement of the
relevant cause of action cannot themselves support
[**17] a claim of federal question jurisdiction. See, e.g.,
Baldwin v. Pirelli Armstrong Tire Corp., 927 F. Supp.
1046, 1053 (M.D. Tenn. 1996); 13D Charles Alan
Wright & Arthur R. Miller, Federal Practice &
Procedure § 3566 (3d ed. 1999).”
R.I. Fishermen's Alliance. Inc, v. R.I. Den't of Envtl.
Mgmt.. 585 F.3d 42. 50 (1st Cir. 2009)
Fifth, a recent 1st Circuit decision in McDermott.
Marcus, Errico, Emmer & Brooks, P.C. examining
statutes of limitations within the FDCPA and
M.G.L.c. 93A concluded that even generally congress
did not intend for the FDCPA to pre-empt consistent
state law.
“Indeed, “No revealed case law suggests that
Chapter 93A and the related Massachusetts statutes
and regulations dealing with debt collection practices
are inconsistent with, and thus preempted by, the
FDCPA.” Dean v. Compass Receivables Management
Corp.,148 F.Supp.2d 116, 119 (D.Mass.2001) (citing 15
U.S.C. § 1692n); see also Gonzales v. Arrow Financial
Services, LLC,660 F.3d 1055, 1067 (9th Cir.2011)
(section 1692n “coupled with the FDCPA's express
purpose to ‘promote consistent State action,’ 15 U.S.C.
§ 1692(e), establishes that Congress did not intend the
FDCPA to preempt consistent state consumer
protection laws”); see, e.g., Harrington v. CACV of
Colorado, LLC.508 F.Supp.2d at 132...”
McDermott v. Marcus. Errico. Emmer & Brooks. P.C..

911 F. Sunn. 2d 1. 48 (D. Mass. 2012)

10
In the face of this avalanche of it’s own
precedent, the 1st Circuit in the instant case has
created an internal jurisdictional variability
with
“Hypothetical
and
proceeded
Jurisdiction”, all in conflict with this Honorable
Court’s Decisions resulting in effect, that, Federal
Jurisdiction in the 1st Circuit is based upon which
Judge a litigant appears before,... simply a pure
Constitutional violation of Petitioner’s (and other
litigants similarly situated) right to due process and
equal protection.
Clearly, in the instant case, the FDCPA does not
pre-empt Chapter 93A, nor does the resolution of the
93A claim turn on a substantial issue arising under
the FCDPA. Accordingly, there is no Federal
Jurisdiction in this case and this Honorable Court
should grant Certiorari and expeditiously reverse the
1st Circuit, and render the dismissal and judgement
null and void and without effect and order a Remand.
This Honorable Court’s decisions supports Petitioner’s
position.
In Altria Grp., even in the face of an express
pre-emptions provision in a Federal Statute and
further, that Federal Pre-emption if disfavored.
“Article VI, cl. 2, of the Constitution provides that
the laws of the United States “shall be the supreme
Law of the Land; ... any Thing in the Constitution or
Laws of any state to the Contrary notwithstanding.”
Consistent with that command, we have long
recognized that state laws that conflict with federal
law are “without effect.” Maryland v. Louisiana, 451
U.S. 725, 746, 101 S.Ct. 2114, 68 L.Ed.2d 576 (1981).

11

Our inquiry into the scope of a statute's pre­
emptive effect is guided by the rule that “ ‘[t]he
purpose of Congress is the ultimate touchstone’ in
every pre-emption case.” Medtronic, Inc. v. Lohr, 518
U.S. 470, 485, 116 S.Ct. 2240, 135 L.Ed.2d 700 (1996)
(quoting Retail Clerks v. Schermerhorn, 375 U.S. 96,
103, 84 S.Ct.219, 11 L.Ed.2d 179 (1963)). Congress
may indicate pre-emptive intent through a statute's
express language or through its structure and
purpose. See Jones v. Rath Packing Co., 430 U.S. 519,
525, 97 S.Ct. 1305, 51 L.Ed.2d 604 (1977). If a federal
law contains an express pre-emption clause, it
does not immediately end the inquiry because
the question of the substance and scope of
Congress' displacement of state law still
remains. Pre-emptive intent may also be inferred if
the scope of the statute indicates that Congress
intended federal law to occupy the legislative field, or
if there is an actual conflict between state and federal
law. Freightliner Corp. v. Myrick, 514 U.S. 280, 287,
115 S.Ct. 1483, 131 L.Ed.2d 385 (1995).
When addressing questions of express or implied
pre-emption, we begin our analysis “with the
assumption that the historic police powers of the
States [are] not to be superseded by the Federal Act
unless that was the clear and manifest purpose of
Congress.” Rice v. Santa Fe Elevator Corp., 331 U.S.
218, 230, 67 S.Ct. 1146, 91 L.Ed. 1447 (1947). That
assumption applies with particular force when
Congress has legislated in a field traditionally
occupied by the States. Lohr, 518 U.S., at 485, 116
S.Ct. 2240; see also Reilly, 533 U.S., at 541-542, 121
S.Ct. 2404 (“Because ‘federal law is said to bar state

12

action in [a] fiel[d] of traditional state regulation,’
namely, advertising, we ‘wor[k] on the assumption
that the historic police powers of the States [a]re not
to be superseded by the Federal Act unless that [is] the
clear and manifest purpose of Congress' ” (citation
omitted)). Thus, when the text of a pre-emption clause
is susceptible of more than one plausible reading,
courts ordinarily “accept the reading that disfavors
pre- emption.” Bates v. Dow Agrosciences LLC, 544
U.S. 431, 449,125 S.Ct. 1788,161 L.Ed.2d 687 (2005).”
Altria Grp.. Inc, v. Good. 555 U.S. 70. 76-77 (20081
B. PRIOR
EXCLUSIVE
JURISDICTION
DOCTRINE
Furthermore, Petitioner in his Motion to Remand
and Appeal of its denial without argument at either
stage, asserted this Honorable Court’s Mandatory
Prior Exclusive Jurisdiction Doctrine requiring
Remand.
Marshall defines the mandatory doctrine as
requiring remand based upon the mandatory
jurisdictional limitation of the Doctrine of Prior
Exclusive Jurisdiction espoused by the
Supreme Court in Marshall v. Marshall, 547 U.S.
293, 311, (2006). “It is not a discretionary
abstention rule. It is a mandatory jurisdiction
limitation.”
State Eng’r v. S. Fork Band of Te-Moak Tribe of W
Shoshone Indians. 339 F. 3rd. 804. 810 (9th Cir. 2003).

13
This long-standing doctrine was explained by this
Honorable Court as far back as 1922:
“Where the action is in rem the effect is to draw to
the federal court the possession or control, actual or
potential, of the res, and the exercise by the state court
of jurisdiction over the same res necessarily impairs,
and may defeat, the jurisdiction of the federal court
already attached. The converse of the rule is equally
true, that where the jurisdiction of the state court has
first attached, the federal court is precluded from
exercising its jurisdiction over the same res to defeat
or impair the state court’s jurisdiction.”
Kline v. Burke Constr. Co.. 260 U.S. 226. 229 (1922).
The 9th Circuit Court, in an excellent analysis of
the Doctrine in Chapman v Deutsche Bank, (DB)
determined that, unlawful detainer actions
(Massachusetts Summary Process) and quiet title
actions are both in rem. The Court, responding to
DB’s arguments by DB (in Chapman) that, summary
process (unlawful detainer) and quiet title are not, “in
rem”, rebuffed this baseless assertion:
“The Chapmans' claim is in rem or quasi in rem
because they seek to establish title to property. The
nature of their claim does not change because they
request monetary damages in addition to the central
relief—quiet title—that they request. Here, as in
Seitz, the Chapmans' quiet title claim "is quasi in rem
or in rem, [and] it does not lose that nature simply
because [they] seek[ ] monetary damages in addition
to title to property." Seitz, 2012 U.S. Dist. LEXIS
162927, 2012 WL 5523078, at *11.”
Chapman v. Deutsche Bank Nat'l Trust Co.. 302 P.3d
1103. S. Ct. Nev. 9th Cir. (2013).

14

In a strikingly similar case, a similarly-seated
U.S. District Judge remanded a case back to state
court to determine quiet title and declaratory
judgment as to ownership of the Property. In fact, the
Judge ordered that remand was required pursuant to
the Mandatory Prior Exclusive Jurisdiction Doctrine.
(See Podbielancik v. LPP Mortgage, Ltd.,
(Podbielancik v. LPP Mortgage , Ltd.., No. C13-1934MJP, 2014 WL 1807049 b (W.D. Wash. May7, 2014)
Clearly, the 1st Circuit, failed to Remand the case
back to State Court, in violation of the Mandatory
Prior Exclusive Jurisdiction Doctrine, the lack of
Federal Questions and failed to correctly apply
dispositive state law to Petitioner’s case violating
Petitioner’s Constitutional rights and Separation of
Powers Federalism.
C. DUE PROCESS AND EQUAL PROTECTION
Petitioner has asserted that the signatures of both the
assignment, endorsements of purported notes, (many
versions,) of both the signatories and the notaries were
stunningly fraudulent. (Furthermore, years prior to
this illegal conduct, the purported Assignee sold (A3 )
and completely divested itself of any rights in
anything related to the instant case, thereby
rendering DB as a non-Real Party in Interest
obliterating DB’s standing.)
The misrepresentation in open court of DB’s Counsel,
was clear, stating that even if the signatures on the
assignment of mortgage of both the affiant and the
notary were fraudulent, that DB could simply have
another assignment executed post foreclosure! (A66
Transcript, Page 10, line 12-23,)

15

This is a complete fabrication and misrepresentation
of the Law of the Commonwealth.
Justice Long in U.S Bank National Association, v
Ibanez held, in the face of US Banks argument, that it
could obtain another assignment post foreclosure, (as
is DB’s position here) was met by a complete rejection
by the Court in Ibanez:
“....retroactive assignments, long after notice and sale
have taken place, do not cure statutory defects”
U.S Bank National Association v Ibanez Misc 08384283
The Supreme Judicial Court granted Direct Appellate
Review and expanded this simple statement
(rendering the foreclosure void), after US Bank recited
a title standard in support of its position, holding:
“Third, the plaintiffs initially argued that post-sale
assignments were sufficient to establish their
authority to foreclose, and now argue that these
assignments are sufficient when taken in conjunction
with the evidence of a presale assignment. They argue
that the use of post-sale assignments was customary
in the industry and point to Title Standard No. 58 (3)
issued by the Real Estate Bar Association for
Massachusetts, which declares: "A title is not defective
by reason of . . . [fjhe recording of an Assignment of
Mortgage executed either prior, or subsequent, to
foreclosure where said Mortgage has been foreclosed,
of record, by the Assignee." To the extent that the
plaintiffs rely on this title standard for the proposition
that an entity that does not hold a mortgage may
foreclose on a property, and then cure the cloud on title

16
by a later assignment of a mortgage, their reliance is
misplaced, because this proposition is contrary to G.L.
c. 183, § 21, and G.L. c. 244, § 14. If the plaintiffs did
not have their assignments to the Ibanez and
LaRace mortgages at the time of the publication
of the notices and the sales, they lacked
authority to foreclose under G.L. c. 183, § 21, and
G.L. c. 244, § 14, and their published claims to be
the present holders of the mortgages were false.
Nor may a post-foreclosure assignment be
treated as a pre-foreclosure assignment simply
by declaring an "effective date" that precedes
the notice of sale and foreclosure,...”
U.S. Bank National Assoc, v. Ibanez. 458 Mass. 637.
653-54 (Mass. 2011)
Thus, DB’s counsel misrepresented the Law to the
Court, to which the Court issued an immediate
dismissal of Petitioner’s case founded upon the exact
opposite of the state of the Law in Massachusetts.
Furthermore, the void assignment conveyed nothing
as New Century (Assignor) divested itself of any rights
in and to the purported note and purported mortgage
3 years prior to any void assignment in question (A3),
thereby divesting New Century (purported assigner)
of any and all its rights in and to the purported note
and purported mortgage, years prior to the void
Assignment to DB.

17
Therefore, even if DB’s counsel were correct, that it
could obtain another post foreclosure assignment, this
time with valid signatures, this hypothetical
assignment would convey that very same thing that
the initial void Assignment conveyed,...NOTHING !!!
The ages old tenet in our property law that one cannot
convey something they do not own nor have any rights
to, is something taught in law school. This simple fact
entitles Petitioner, as a matter of law that he should
prevail in this matter but for the misrepresentations
of DB’s Counsel to the Court which rested its dismissal
on this, tantamount to a fraud upon the Court.
DB’s fictional story further ignores the fact that, even
if DB were the real party in interest, Assignor had
divested itself 3 years prior to the execution of the void
Assignment.
Accordingly, any assertion that DB attempts will fail
as this fairy tale in opposite of the law of the
Commonwealth is, frankly, a legal impossibility.
With nothing more on the subject nor any proof of any
sort whatsoever, that DB is in fact the real party in
interest, nor acting in behalf of a real party in interest,
nor in possession of the subject documents, and that
DB would be entitled to such “New Fictional
accepted
the
the
Court
Assignment”,
misrepresentations of DB’s Counsel dismissed
Petitioner’s case. A timely Appealed was of course
filed.
Thereafter, Petitioner filed his First Amended Answer
Counter-Claim and Third Party Complaint with the
Northeast Housing Court including the newly
discovered evidence demonstrating the complete

18

divestiture of all rights (Assignor) purportedly had
(rendering all of the Respondents conduct as illegal) in
the subject purported note and purported mortgage
proving that DB is not the real party in interest, nor
acting in behalf of same.
Currently, Petitioner’s case at the Northeast Housing
Court remains active.
D. SEPARATION OF POWERS- FEDERALISM
The 1st Circuit has created a distortion in the law
of the Commonwealth of Massachusetts, and
unfortunately, the Courts in the Commonwealth have
blindly adhered to this distortion in “the Emperor’s
New Clothes” fashion.
Petitioner has asserted during the entire
pendency of this litigation that both the purported
note and purported mortgage have expired by
operation of law.
This distortion and violation of the Separation of
Powers-Federalism concerns the statutes applicable
to mortgages and notes, pursuant to:
1. M.G.L.c. 260 Sec. 33 (“33”), mortgages, (A91)
2. M.G.L.c. 106 Sec. 3-118, (“3-118”) notes, (A95) and
3. M.G.L.c. 106 Sec. 3-304, (3-304”)
overdue instruments (A126)
A. Purported Mortgage:
The origins of the assertion that the purported
mortgage is expired by operation of law finds its roots
in (“33”).

33 was enacted in 1957 to clear titles of old
mortgages and later amended in 2005 to add an
additional purpose of acting as a statute of limitations
on foreclosures (5 years) (actually a statue of repose).

19
The added purpose in 2005 of limitations on
foreclosures was first examined by the Supreme
Judicial Court in Deutsche Bank Nat’L Trust Co. v.
Fitchburg Capital LLC. 28 N. 3rd 416. 471 Mass. 248.
( 2015). (“Fitchburg”), (A100) reproduced in full.
Fitchburg is a thorough well-reasoned, intense
legal analysis by the Court in Fitchburg which the 1st
Circuit, has interpreted incorrectly, and has refused
to follow, violating the Separation of Powers Federalism, thereby creating a distortion of 33 and
Fitchburg, which has now caused the lower Courts in
the Commonwealth to blindly follow causing injury in
fact to this Petitioner as well as many citizens of the
Commonwealth of Massachusetts by a taking of their
property without due process, without equal
protections and tantamount to a taking without just
compensation.
Fitchburg in interpreting 33 with its many
holdings has effectively overruled the argument that
actions on mortgage documents is an action in rem
that has no expiry period other than that stated in the
document itself, (actions on mortgages are in rem but
they can now expire due to the operation of 33, 3-304,
and the holdings in Fitchburg, rendering mortgages
as automatically discharged within 5 years of being
overdue, thus an in rem action by way of foreclosure
is extinguished without any action upon the
mortgagor whatsoever).
The SJC obliterated this wrongful assumption in
two ways:
First, when an underlying debt is accelerated the
maturity date is advanced to a new maturity date.
Fitchburg did not have acceleration, nor does 33
require acceleration (see acceleration, infra) as the
subject documents in Fitchburg were already expired
by their own terms.

20

Second, Court the Court held that the documents
were overdue instruments (Pursuant to 3-304) and
five years had passed, thereby rendering them
expired.
One need only read the Fitchburg case in a very
careful fashion as the holdings and implications are
many. The holdings are clear leaving no doubt as to
the operation of the 5 year statue of repose on
foreclosures in 33.
The distortion created by the 1st circuit was as
result of the Court being misdirected by litigants
citing Fitchburg and 33 as standing for acceleration.
In fact, several cases before the first circuit exclaimed
that they had reviewed Fitchburg and 33 and found
no language of “acceleration!”.
This is of course because Fitchburg did not have
acceleration in it’s fact pattern, the documents had
already expired by their own terms, and 33 does not
contain language of acceleration as acceleration is not
required for the operation of the 33 but is one
methodology for its operation. Furthermore, only
debts can be accelerated not security documents,.,
their maturity dates however can be advanced by
acceleration, (see Acceleration, infra).
When the underlying debt is accelerated or if the
instrument is overdue by 5 years the statue has been
satisfied, extinguishing the mortgage document.
Furthermore, 33 does not require acceleration,
(but is in fact one methodology for the running of the
statute), nor satisfaction,.. Fitchburg has made this
clear. 3-304 defines overdue instruments. Fitchburg
held that the subject documents were overdue by their
own terms, by 5 years, and therefore had
extinguished.

21
The Court in Fitchburg opined,
“In that regard, Fitchburg does not argue that
applicability of the revised limitations period for
mortgages in which the term is not stated depends on
satisfaction of the underlying obligations. The
obsolete mortgage statute created a limitations
period for bringing foreclosure actions against
mortgages. G.L. c. 260, § 33. Under the
amendment, the statute requires the holder of a
mortgage to foreclose on the mortgage, record a
document asserting nonsatisfaction, or record an
extension before the mortgage has been on record for
thirty-five years or before the secured debt is
overdue by five years (and the due date is stated on
the face of the mortgage). See St. 2006, c. 63, § 6. The
statute has never been interpreted to require
satisfaction of a mortgage’s underlying
obligations before the mortgage becomes
unenforceable.
Conversely, the statute provides a mortgagee
options to preserve its rights under a mortgage that
has not been satisfied by recording an
asserting
affidavit
or
acknowledgment
nonsatisfaction, or by recording an extension of term.
G.L. c. 260, § 33, as amended by St. 2006, c. 63, § 6.
Discharge under the obsolete mortgage statute has
never rested on satisfaction of a mortgage's
underlying obligations, and we decline to adopt a
contrary position today.”
Deutsche Bank Nat'l Trust Co. v. Fitchburg Capital.
LLC. 28 N.E.3d 416. 424-25 (Mass. 2015)

22

Fitchburg could not be clearer that debts that refer to
the underlying note’s maturity date are subject to the
5 year statue of limitation, and if accelerated, a new
maturity date is created from which the 5 year statute
of repose commences, or pursuant to 3-304 the
instrument is overdue by 5 years, triggering the
Statue of Repose to run.
The Court should note that, acceleration is not
required of a mortgagee and is at it’s election to do so,
and this provision is literally in all residential
mortgage documents. Furthermore, mortgages can be
accelerated without being overdue as several
covenants contained in mortgages in general give a
lender rights to “accelerate” even if a mortgagor is not
in default with their monthly mortgage payment!
Reasons for this are typically; failure to insure, pay
taxes etc. (if not escrowed), or even if the mortgagee
deems itself under-secured (undercollateralized).
Furthermore, when an instrument becomes overdue
and remains overdue, the 5-year period is satisfied,
rendering the mortgage as expired. Nothing more
need be done by a mortgagor; the mortgage is
automatically discharged by the operation of the self­
executing statute.
In either case, Petitioner’s assertions that the
purported note and purported mortgage expired by
operation of law pursuant to 33, and 3-304 are, clearly,
not only supported by the statues and the decisions of
the Commonwealth but leave no doubt that
Petitioners assertions are absolutely accurate.
Accordingly, the wrongful foreclosure conducted upon
the home of the Petitioner were based upon
documents that had expired more than a year with
regards to the mortgage, and several months
regarding the note.

23

Additionally, This Honorable Court should note
that Massachusetts is an “incident” state and
meaning that the mortgage takes its vitality from the
underlying debt. The expired note operated as
creating the mortgage as a nullity and 33 eliminated
any in rem action on the expired mortgage.
Deutsche Bank National Trust Company v
Fitchburg Capital, LLC Interpreting 33 as well as 3304 initially before the Land Court, then appeal to the
Mass Appellate Court,.... The Supreme Judicial
Court transferred the case on its own initiative from
the Appeals Court. Its holdings cannot be more clear.
The Supreme Judicial Court in its analysis
concluded that the statute applied to all
mortgages, not just to “mortgages that were
paid off’, as Fitchburg asserted. The SJC in fact
stated that mortgages can’t be paid off, only the
debt that they secure. They continued with a wellreasoned analysis that a “maturity date” as defined
by Black’s law dictionary, means the date when
a debt falls due.
Here, the debt DB attempts to collect and illegally
foreclosed upon Petitioner’s Property, where the
purported debt had fallen overdue on May 2, 2008
(after default on May 1, 2008, - overdue instrument)
and by virtue of the acceleration of the debt in its
entirety on September 1, 2008, (upon expiration of the
90 day cure period after default, August 31, 2008)
(A89, Notice of intention to Foreclose).
Since the debt had become overdue on May 2,
2008 and then accelerated on September 1, 2008
(creating a new maturity date), the Statutory period
commenced at the earlier of the two dates, and
notwithstanding DB failed to foreclosure prior to the
expiration of the 5 year period...in both instances!
Instead they foreclosed on August 5, 2014 at least 5
years and 1 month after the statute had run.

24
1st Circuit have refused to follow this centuries
old law that acceleration advances a maturity date
creating a new maturity date.
Acceleration advancing a maturity date creating
a new maturity date is overwhelmingly well settled
law extending over several centuries supporting the
rule that, “acceleration advances the maturity date of
any debt creating a new maturity date”.
Finally, one need not look too far for the reference
to “Acceleration” in our statutes,.. MGLC 106, Section
3-118, (A95), MGLC 244 Section 35 A, (A97)
Continuing, the SJC stated:
“The obsolete mortgage statute created a
limitations period for bringing foreclosure actions
against mortgages. G. L. c. 260, § 33. Under the
amendment, the statute requires the holder of a
mortgage to foreclose on the mortgage.... before the
secured debt is overdue by five years (and
[**425] the due date is stated on the face of the
mortgage), {as Petitioner’s} See St. 2006, c. 63, § 6.
The statute has never been interpreted to require
satisfaction of a mortgage's underlying obligations
before the mortgage becomes unenforceable.
Conversely, the statute provides a mortgagee
[***19] options to preserve its rights under a
mortgage that has not been satisfied by recording an
asserting
affidavit
or
acknowledgment
nonsatisfaction, or by recording an extension of term.
G. L. c. 260, § 33, as amended by St. 2006, c. 63, § 6.
Discharge under the obsolete mortgage statute
has never rested on satisfaction of a mortgage's
underlying obligations, and we decline to adopt
a contrary position today.
Deutsche Bank National Trust Company v. Fitchburg
Capital. LLC, 471 Mass. 248. 257 (hereinafter the
Rule in Fitchburg).

25
ACCELERATION
The centuries old and valid law that, Acceleration
by definition advances the maturity date of a debt
creating a new maturity date, is replete in the history
of our Jurisprudence. It should be noted that no
statute, nor any case has been found by the
undersigned that states, in some fashion, that
maturity dates on the face of notes or mortgages, are,
“etched in stone” and not amenable to change.
Simply put, maturity dates are always subject to
change. Courts have consistently applied the principle
that acceleration advances the maturity date,
including the 1st Circuit.
Senior District Judge for the 1st Circuit, the Honorable
Judge Caffrey, in Baybank examined and described
the principle clearly:
“This is so because, absent some express
agreement to the contrary, acceleration, by
definition, advances the maturity date of the
debt so that payment thereafter is not prepayment,
but instead is payment made after maturity. See LHD
Realty, 726 F.2d at 330-31; Grozier, 342 Mass, at 10607; A-Z Servicenter, 334 Mass, at 676, 138 N.E.2d 266.
Upon acceleration, the borrower is not choosing to pay
early; he is forced to pay because the debt has become
due. Thus, when lenders accelerate the maturity
[**23] of the debt, they waive their opportunity to
earn, and their claim to, interest payable over a period
of years in exchange for the immediate payment of the
outstanding principal and accrued interest. See LHD
Realty, 726 F.2d at 331.
Bavbank Middlesex v. 1200 Beacon Properties. Inc..
760 F. Sunn. 957. 966 (D. Mass. 19911

26

In the case of In Re Energy Future Holdings the
Delaware Bankruptcy Court construing repayment
after acceleration stated:
“Under New York law, a borrower's repayment
after acceleration is not considered voluntary. This is
because acceleration moves the maturity date from
the original maturity date to the acceleration date and
that date becomes the new maturity date. Prepayment
can only occur prior to the maturity [*100] date, and
acceleration, by definition, advances the maturity
date of the debt so that payment thereafter is not
prepayment but instead is payment made after
maturity.”
In re Energy Future Holdings Corn.. 540 B.R. 96. 99100. (20151.
The Court in Energy continued noting that the
general rule is acceleration advances the maturity
date:
“21 MSCI 2007-IQ16 Retail 9654, LLC v. Dragul,
No. l:14-CV-287, 2015 U.S. Dist. LEXIS 40659, 2015
WL 1468435, at *3 (S.D. Ohio Mar. 30, 2015) ("Upon
default and the acceleration of the loan, the
maturity date advances and any subsequent
payment is no longer considered a voluntary
prepayment. The lender forfeits the collection of a
prepayment premium in such a scenario unless the
parties' agreement contains a 'clear and unambiguous'
clause requiring payment of the prepayment premium
upon default and acceleration. This general rule
created the problem that a borrower might actually
intentionally default to acquire the right to prepay
without penalty, so lenders began including
provisions in loan documents to ensure the
prepayment penalty would be enforceable after
default.") (citations omitted)).
In re Energy Future Holdings Corn.. 540 B.R, 96. 104
(2015)

27

The Gibbon case construing its six-year statute of
limitations on the viability of mortgage documents
follows the well settled and universally accepted
doctrine that acceleration advances the maturity date
of the debt, citing Williston on Contracts.
“But if an obligation that is to be paid in
installments is accelerated, the entire remaining
balance becomes [*435] due and the statute of
limitations is triggered for all installments that had
not previously become due. 31 Samuel Williston &
Richard A. Lord, A Treatise on the Law of Contracts §
79:17, at 338, § 79:18, at 347-50 (4th ed. 2004); accord
12 Am. Jur. 2d, Bills and Notes § 581 (2009).
Gibbins continued discussing the actions a lender
must take to effect an acceleration.
“To accelerate the maturity date of a promissory
note, ‘“[s]ome affirmative action is required, some
action by which the holder of the note makes known
to the payors that he intends to declare the whole debt
due.’” Glassmaker, 23 Wn. App. at 37 (emphasis
omitted) (quoting Weinberg v. Naher, 51 Wash. 591,
594, 99 P. 736 (1909)). “[M]ere default alone will not
[**7] accelerate the note.” A.A.C. Corp., 73 Wn.2d at
615. “[Acceleration [of the maturity of the debt] must
be made in a clear and unequivocal manner which
effectively apprises the maker that the holder has
exercised his right to accelerate the payment date.”
Glassmaker, 23 Wn. App. at 38.”
4518 S. 256th. LLC v. Karen L. Gibbon. PS. 195 Wn.
Ann. 423. 435 (2016)

28

The Court of appeals of North Carolina construing
its ten-year statute of limitations follows the principle
of advancing the maturity date by acceleration.
“the statute of limitations does not begin to accrue
on the date of default (last payment), but instead
begins on the date of maturity of the loan, unless the
note holder or mortgagee has exercised his or her right
of acceleration. However, if payment on a promissory
note is accelerated, the power of sale would begin to
run on the date of acceleration.
In the case of, In re Foreclosure of Deed of Trust stated
and holding:
“When an acceleration clause is absolute, the
entire indebtedness becomes due immediately upon
default. Such an acceleration is self-executing,
requiring neither notice of default nor some further
action to accelerate the debt, {automatic Acceleration}
Baader v. Walker, 153 So. 2d 51 (Fla. 2d DCA 1963).
By contrast, where the acceleration clause is optional
(as it is in this case), it is not automatic or self­
executing, but requires the lender to exercise this
option and to give notice to the borrower that it has
done so. Rones v. Charlisa, Inc., 948 So. 2d 878, 879
(Fla. 4th DCA 2007) (quoting Central Home Trust Co.
of Elizabeth v. Lippincott, 392 So. 2d 931, 933 (Fla.
5th DCA 1980)) (holding acceleration option was
exercised by filing of foreclosure complaint and noting
that "to constitute an acceleration after default, where
the holder has the option to accelerate, the holder or
payee of the note must take some clear and
unequivocal action indicating its intent to accelerate

29
all payments [**7] under the note, and such action
should apprise the maker of the fact that the option to
accelerate has been exercised."); Greene v. Bursey,
733 So. 2d 1111,1115 (Fla. 4th DCA1999) (noting that
in an installment contract with an optional
acceleration clause, "the entire debt does not become
due on the mere default of payment; rather, it
become[s] due when the creditor takes affirmative
action to alert the debtor that he has exercised his
option to accelerate").”
In re Foreclosure of Deed of Trust. 303 N.C. 514 (N.C.
1981)
jurisdictions
overwhelmingly,
Clearly,
throughout this Republic have followed the centuries
old law, that, Acceleration of a debt advances the
maturity date therefore creating a “New Maturity
Date”
Additionally the complimentary statute to 260
Section 33, is that of Section 34, (A92):
Courts are required to give effect to statutes
that are not unconstitutional. This “safe harbor”
Section 34 would be rendered meaningless without
the support and validations that, acceleration
advances the maturity date of a debt, and since ( as
here) the purported mortgage references the date of
the underlying note, the maturity date of the
mortgage is also advanced, and where ( as here) a
mortgage holder either fails to foreclose withing the 5
year period of 33 or fails to file an affidavit of no
satisfaction pursuant to Sec 34 of 260, then the result
is that the mortgage documents is discharged by
operation of the self-execution Section 33 of 260.

30

Furthermore, one need not look too far to find
support within the Statues of the Commonwealth for
this law.
M.G.L.c. 106 Section 3-118 is the statute
applicable to promissory notes and references
acceleration. Section 33 references the safe harbor
provision. There can be no doubt that the Court in
Fitchburg read and understood the interplay amongst
these statues and provides a well-reasoned conclusion
in Fitchburg, that, debts that are overdue by 5 years
are subject to the self-executing statute (260 Sec 33)
that renders any mortgage document as a nullity,
instantly, at the expiration of the 5 years. No effort
on the part of the homeowner is required. Here the
safe harbor provision has never been invoked by any
of the Respondents, and therefore the purported
mortgage in the instant case is a nullity, and every
action taken by any one of the Respondents or its
agents, attorneys, or servicers is illegal.
Here, the accelerated date or 3-304’s overdue
instrument provision, starts the clock on the Statute
of Repose both under a note (3-118) and under a
mortgage that fails to state a maturity date (33) but
in fact references the maturity date of the underlying
note, thereby rendering the application of the rule in
Fitchburg, that, the mortgage documents is now
subject to the self-executing 5 year statute of repose at
MGLC 260 Section 33.
Further support is found in Gandolfo:
The Court discussed sections 6 and 8 of the Act
(260 S 33) and concluded noting that section 8 of the
act contains an accelerated discharge provision.

31
“...this court is of the opinion that the meaning of
the word term is clear within the context of the
operative provisions, §§ 6 & 8 of the Act. In § 6, the
word term appears three times in the first sentence.
The first mention of the word is in connection with "a
mortgage in which no term of the mortgage is stated."
In that instance, foreclosure proceedings may be
undertaken within 35 years of the date the mortgage
was recorded. The second and third references
appear in connection with a mortgage "in which
the term or maturity date.. .is stated...." In that
event, foreclosure proceedings are to be
initiated "5 years [**9] from the expiration of
the term or from the maturity date. ..." In the
foregoing instances, term alludes to the stated
duration [or lack thereof] as set forth in the mortgage
instrument.
In the foregoing instances, the word term is either
conflated with the concept of a maturity date or it
appears as an alternative to the maturity date. In
either event, the Legislative intent can be readily
ascertained, See Note 5 infra. In § 8 of c. 63, the word
term is possessed of a somewhat different meaning
than that found in § 6. Section 8, provides that the
accelerated discharge provisions set out in § 6
are to apply to all mortgages, whether recorded
before, on or after the effective date of the Act,
October 1, 2006.”
Gandolfo v. Graham. 18 LCR 517. 518 (Mass. Land Ct.
October 8. 2010)
Applying the Rule of Fitchburg
Here the acceleration and the fact that the
instrument was overdue pursuant to 3-304 was clear.
The default on May 1, 2008 (confirmed by DB), the
maturity date was accelerated to September 1, 2008

32

New Maturity Date, after expiration of 90 right to
cure) bringing the entire amount due immediately in
full and upon the expiration of the right to cure
(August 31, 2008) the note was accelerated and
overdue by 5 years and due in full creating a new
maturity date, September 1, 2008.
Simultaneously this triggers the running of 33, Statue
of repose, and more importantly 3*304 overdue
instruments, commenced the running of 33 on May 2,
2008 upon the mortgage document itself and 3-118 on
the purported note.
By operation of the Statutes the purported
mortgage document expired on May 2, 2013 or at the
very latest, September 1, 2013 and upon such
expiration nothing was required for the Petitioner to
do in order solidify the end of the legal efficacy of the
purported mortgage pursuant to the Statues. 33 is
self-executing and requires no action on the part of the
Petitioner. There was no safe harbor provision
recorded at the registry of deeds, by anyone.
On May 2, 2013 consistent with the holding of
Fitchburg, the “secured debt” was overdue by 5 years,
therefore Pursuant to 33 the purported mortgage
documents expired rendering the debt as a suit upon
a promissory note, (by whom it is still unknown). Then
as the clock continued to run the purported note
expired as well 1 year later on September 1, 2014,
(pursuant to 3-118) a month before the illegal
foreclosure.
The 1st Circuit (and now the Commonwealth)
have thus far not followed the Supreme Judicial Court
in it’s rulings (again not in Fitchburg, where there was
no acceleration) that affirms this centuries old rule
that: Acceleration advances the maturity date of a
debt, thereby creating a new maturity date
(see Univ. Of Pennsylvania Law Review,
Acceleration Clauses in Notes and Mortgages, 1939)
(for the historical perspective)

33

Thus far Petitioner is aware of 7 cases that have
been before the 1st Circuit which has refused to apply
the rule of Fitchburg to any of the, accelerated and or
“overdue secured debts” before it.
Here, Countrywide has failed to foreclose before
the mortgage documents had expired by operation of
law. Nothing occurred interrupting the running of 33
and no safe harbor provisions were invoked.
Hence both the purported mortgage and the
purported note expired rendering them worthless to
support any action taken by any of the Respondents
over the course of their illegal conduct.
B. PURPORTED NOTE
The Supreme Judicial Court examined the
Statute of Limitation on promissory notes and
concluded that any promissory note executed after
1998 was subject to the 6 year statute of limitations
(3-118) and not the 20 years statute of limitations for
a documents under seal (A94).
“...and that G.L. c. 106, § 3-118, applies to all
negotiable instruments, sealed and unsealed.”
Premier Capital. LLC v. KMZ, Inc.. 464 Mass. 467.
473 (Mass. 2013)
Since, Massachusetts is an “incident” state the
purported mortgage documents have all cease to exist,
all in multiple instances pursuant to 33,3-304, 3-118
and now the “incident” rule in Massachusetts, which
requires that .where, the note has expired, so too does
the mortgage.

34
Thus any and all documents that Respondents had
relied upon to conduct an illegal foreclosure were
either fraudulent, expired by operation of
acceleration, or even without acceleration, were
overdue by 5 years, and the note itself expired 1 year
thereafter, and since Massachusetts is an “Incident “
state, since the underlying note is extinguished so too
was the mortgage, despite any argument that an
action upon a mortgage that refers to the underlying
debt for its maturity date is separate action in rem
with continued vitality,... ignores the fact that 33 cut
off such in rem action.
Furthermore, it should be noted that this
Honorable Court has held that “foreclosure is the
collection of a debt”, not once but twice in its recent
opinion, (See Obduskev v McCarthy Holthus. LLP.
586 U.S.(2019) (Case No 17-130711 (A117)
Here, DB along with the Respondents under its charge
have attempted to collect a debt that has long
extinguished by operation of law well before the
wrongful foreclosure, all in violation of Massachusetts
Law prohibiting such conduct.
Clearly, the 1st Circuit has ignored the overwhelming
law in favor of the Petitioner effectively overruling
case law and the statutes of the Commonwealth of
Massachusetts all in violation Petitioners ridght to
due process and equal protection and in violation of
the Separation of Powers.

35
REASONS FOR GRANTING THE PETITION
I.

The Question Presented Is Important and has
affected many litigants in the Commonwealth.
Federal Courts are Courts of Limited Jurisdiction.
Directly in conflict with this Court’s decisions, the 1st
Circuit has confused its own Jurisdictional Limitations,
even where a multitude of cases within the 1st Circuit
should have forced the Court in the instant case to issue
a Remand. The internal conflict of 1st Circuit is in
direct conflict with this Courts decisions and 1st Circuit
Federal Jurisdiction appears to depend upon which
Justice a litigant comes before, a clear violation of our
Constitutional provisions protecting rights to Due
Process, Equal Protection and the Separation of Powers
- Federalism.

II. The Question Presented results from a
frequently occurring Constitutional violations
having affected many Litigants in the
Commonwealth of Massachusetts.
The Petitioner is directly aware of at least 7 litigants
that have come before Petitioner’s case that have
suffered the same fate: removal to federal court,
distortion applied, back to housing court, res judicata
effect applied dispossessing homeowners all the while
violation their Constitutionally protected rights.
Petitioner is indirectly aware of many others that have
suffered this dame fate. Upon the commencement of
litigation, Petitioner conducted a search to assess how
many other foreclosure matters were removed from
state court and found that DB’s Counsel had
accomplished over 200 removals to Federal Court
within a 12 month period all resulting in illegal
dispossessing of their homes.

:

''V

36

III. This Court is the Guardian of Separation of
Powers.
This Court’s vital function as the guardian of
separation of powers and that safeguarding its
principles is overwhelmingly important (as it
should in this case), where reviewing cases raising
serious separation of powers violations (here a
Federal Court effectively overruling the highest
State Court in Massachusetts construing a pure
state law matter) should be examined to insure our
systems of justice and adherence to the
Constitution remain consistent throughout this
Republic.

CQNCLUSI
For the foregoing reason!
this Petition.
v
Nicholas L. Triantos
Pro se
Lynnfield Woods
200 Broadway, Suite 302
Lynnfield, MA 01940
617-828-4848
nltlaw@nltlegal.com
February 15, 2021

